January 20, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – Laguna Postal Store Postal Retail Unit –
         Elk Grove, CA (Report Number FF-MA-11-004)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Laguna Postal
Store Postal Retail Unit (PRU), Elk Grove, CA (Project Number 11BR001FF003),
performed November 17 and 18, 2010. The Laguna Postal Store is in the Sacramento
District of the Pacific Area. At the conclusion of FY 2011 we will summarize the results
for all reviews in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission (PRC) who monitors and manages the Postal Service’s
compliance with SOX. The Postal Service established the Financial Control and Support
group to oversee the work of the FTC, which tests key financial reporting controls.
Senior Postal Service leaders use the results to identify and correct internal control
deficiencies and report overall results to the PRC. We conducted this oversight review
in support of the independent accounting firm’s reliance on Postal Service
management’s testing and overall audit opinions on the Postal Service’s financial
statements and internal controls over financial reporting.

The overall objective of our review was to evaluate whether the FTC properly conducted
and documented their examination of SOX financial reporting controls.




                                   Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                   FF-MA-11-004
 Laguna Postal Store Postal Retail Unit, Elk Grove, CA


To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Quality Standards for Investigations.1

Conclusion

Based on our review of the FTC’s work, FTC analysts properly conducted and
documented their examination of key SOX financial reporting controls. See Appendix A
for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all our
FTC oversight reviews in a report to Postal Service Headquarters management.
Management will have the opportunity to formally respond to the summary report at that
time.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Carla Tate, manager, at
510-285-9026, or me at 510-285-9024.
 -Signed by Linda J. Libician-Welc
VERIFY authenticity with ApproveI



Linda J. Libician-Welch
Director, Field Financial – West

Attachments

cc:     Douglas G. Germer
        Corporate Audit and Response Management




1
 These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of
1978 as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Investigations have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        2
                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                                FF-MA-11-004
 Laguna Postal Store Postal Retail Unit, Elk Grove, CA


                                                 APPENDIX A: REVIEW RESULTS

       Site Name                                                 Laguna Postal Store
       Finance Number-Unit ID                                    0524250622
       Location Type                                             PRU
       Scope Period Under Review                                 October 1 – November 16, 2010
                                                                 SOX Key Controls for Postal Retail Units –
       FTC Review Program Version and Date                       November 1, 2010
       FTC Team                                                  West



                                                                                              Did the FTC       Did the OIG
                                                                Did the OIG     Did the FTC   adequately      agree with the
                                                                   have         perform the    document            FTC’s
                                                                exceptions/        step in      its work        exceptions/
                                         Did the FTC have        findings       accordance    performed       findings (or no
                                            exceptions/          that FTC           to its       and the        exceptions/
 FTC Review        FTC Review Step/       findings in this       did not?        program?       results?         findings?
Step/Control #     Step Description       step? (Yes/No)         (Yes/No)         (Yes/No)      (Yes/No)          (Yes/No)
Control           Confirm that unit             No                   No              Yes           Yes              Yes
#109CA17-         reserve
Unit Reserve      accountability
Stock             examination
Accountability    procedures are
Counts            followed.

Control           Confirm that                  No                  No                Yes          Yes             Yes
#109CA15-         individual stamp
Individual        stock accountability
Stamp Stock       examination
Accountability    procedures are
Counts            followed.

Control           Confirm that bank             No                  No                Yes          Yes             Yes
#123CA1- Bank     deposit procedures
Deposit           are followed.
Procedures

                                                                        3
                                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                         FF-MA-11-004
 Laguna Postal Store Postal Retail Unit, Elk Grove, CA



                                                                                                    Did the FTC     Did the OIG
                                                                                                    adequately    agree with the
                                            Did the FTC                               Did the FTC    document           FTC’s
                                                have                                  perform the     its work      exceptions/
                                            exceptions/      Did the OIG have            step in    performed     findings (or no
                                            findings in     exceptions/findings     accordance to      and the      exceptions/
 FTC Review         FTC Review Step/         this step?      that FTC did not?       its program?     results?        findings
Step/Control #      Step Description          (Yes/No)            (Yes/No)              (Yes/No)      (Yes/No)       (Yes/No)?
Control           Confirm that                   No                  No                    Yes           Yes             Yes
#109CA23-         management is
Closeout          following close-out
Procedures        procedures and
                  review of the daily
                  unit Postal Service
                  Form 1412 via
                  observation of the
                  closeout process.




                                                                      4
                                                           Restricted Information
